f

4*
w*»

No.
■3k. fJLz t^upzoKuz douzfc o| tRa ^lAvuioJi estates
Norman Douglas Diamond,
Petitioner,
v.
United States and Unknown Employees of the United States,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
contains 4,885 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.
Executed on August 26, 2019.

/s/ Norman Douglas Diamond
ProSe
5404 Alexander Crescent
Niagara Falls, Ontario, L2E 2T8
Canada
Tel.: 905-371-6494
Email: nOdiamond@yahoo.co.jp

